CARDHOLDER AGREEMENT
This document is our standard form credit card agreement in effect on the last business day of the previous calendar
month that ended on March 31, 2020 and has been supplemented with pricing information included in the
document(s) titled “Term & Conditions” These documents are provided to you for informational purposes only. These
account terms may not be available after the above date. If you apply and are approved for a credit card account with
us, your actual account terms will be based on the terms of the offer available at the time that you applied and your
Cardholder Agreement will be the agreement sent to you when your account is first opened.
This Agreement establishes the terms of your credit card account (“Account”) with Farm Bureau Bank FSB, Sparks,
Nevada. Please read it carefully and keep it with your records. You do not need to sign this Agreement, but please sign
the back of your credit card (the “Card”), if you have not already done so. All extensions of credit in connection with your
Account are being made by Farm Bureau Bank, FSB.
Definitions. If we use a capitalized term in this document but we do not define the term in this document, the term has the
meaning as used in your monthly statement.
“Agreement” means this document, the Terms & Conditions and any changes we make to these documents from time to
time.
“Authorized User” means any person you allow to use your Account including without limitation through a Card, Check, the
account number, or other credit device.
“Balance Transfer” means the use of your Account for a loan obtained by a transfer of funds initiated by us at your request,
and includes the use of a Balance Transfer Check.
“Cash Advance” means the use of your Card or account number to obtain cash loans at any financial institution or
automated teller machine that accepts the Card, the use of a Cash Advance Check or the purchase of Cash Equivalents.
“Cash Equivalent” means the use of your Card or account number to obtain money orders, traveler’s checks, foreign
currency, lottery tickets, gambling chips, wire transfers, person to person money transfers (including but not limited to
transfers facilitated over the Internet), or the use of your Account to open a deposit account or to transfer value to a stored
value card at a location or through a merchant other than a financial institution and any other transaction that MasterCard,
Visa and/or American Express (as applicable to your Account) may designate as a Cash Equivalent.
“Check” or “Convenience Check” means an access check we provide to you to make a Cash Advance or a Balance Transfer
as applicable on your Account. A Check can be either a Balance Transfer Check or a Cash Advance Check and will be
designated as such by us.
“Daily Periodic Rate” or “DPR” means the applicable APR divided by 365. DPRs are used to calculate your interest for all
cardholders that are not residents of Iowa when your Account is opened.
“Foreign Transaction” means the use of your Card or Account (other than through a Cash Advance) for a transaction with a
business or entity located outside of the United States or for a transaction in a currency other than U.S. dollars. Foreign
G15809 3.31.2020 Page 1 of 15

Transactions and the Transaction Fees associated with any Foreign Transaction are considered Purchases for interest
calculation purposes.
“Monthly Periodic Rate” or “MPR” means applicable APR divided by 12. MPRs are used to calculate your interest charges if
you are a resident of Iowa when your account is opened.
“Purchase” means the use of your Card or account number to buy or lease goods or services and to make a transaction that
is not otherwise a Balance Transfer or a Cash Advance. Purchases include Foreign Transactions, Account Fees and any
adjustments associated with any Purchase.
“You” and “your” refer to each person who has applied for, accepted, or used the Account and each person who has
agreed to be responsible for the Account.
“We”, “us” and “our” refer the Farm Bureau Bank FSB.
Using Your Account/Acceptance of these Terms. You do not need to accept the Account and this Agreement and none of
the fees on this Account (except as otherwise provided herein) will apply unless you use the Account. If your Account has an
Annual Fee (see the Terms & Conditions to determine if this Account has an Annual Fee) and provided that you have not
otherwise used the Account to make a Purchase, Balance Transfer or Cash Advance or paid the Annual Fee, you may close
the Account within thirty days after Account opening by contacting us at the number on the back of your Card, and if you
do, you will not be responsible for paying the Annual Fee. By signing, keeping, using or otherwise accepting your Card or
Account, you agree to the terms and conditions of this Agreement. You may obtain credit in the form of Purchases, Balance
Transfers and Cash Advances by using your Card, your account number, Checks, or other credit devices. You agree that we
may credit your Account rather than issue cash refunds when you reverse transactions that were originally charged to your
Account. You agree that you will not use your Card or Account in connection with any transaction that is prohibited or
unenforceable and that if you do engage in such a transaction you waive any claim that the charge is uncollectible on the
grounds the transaction was prohibited or unenforceable. The Card must be returned to us upon request. We may replace
your Card with another Card at any time.
Severability. If any provision of this Agreement is, or becomes, illegal, invalid or unenforceable under any applicable statute
or rule of law, that shall not affect the validity or enforceability of any other provision and this Agreement shall be
construed and enforced as if the Agreement did not contain that particular provision to the extent of its invalidity or
unenforceability.
Obligations on Your Account. You authorize us to pay and charge your Account for all Purchases, Balance Transfers, Checks,
and Cash Advances made or obtained by you or anyone you authorize to use your Card or Account. You agree to pay us for
all of these Purchases, Balance Transfers, Checks, and Cash Advances, plus any interest assessed on your Account and any
other charges and fees which you may owe under the terms of this Agreement, whether resulting from 1) physical use of
your Card or a Check, 2) mail order or telephone, computer or other electronic transaction made without presenting the
Card, or 3) any other circumstances where you authorize a charge, or authorize someone else to make a charge, to your
Account. Each person who has agreed to be responsible on the Account is responsible to pay the full amount owed on the
Account. If this is a joint Account, we can send statements and notices to either of you. We may require that you pay the
full amount owed without first asking any other person(s) to pay. Instructions for making payments are on your monthly
billing statement. Payments that comply with the requirements specified on or with your monthly billing statement,
including the time of receipt, will be credited as of the business day they are received. Payments must be mailed to the
G15809 3.31.2020 Page 2 of 15

correct P.O. Box or to the street address specified for U.S. Priority Mail and overnight payments. There may be a delay of
up to five (5) days in crediting payments that are not made in accordance with those instructions. Please allow at least
seven (7) days for the U.S. Postal Service to deliver your payment. All payments must be made in U.S. dollars. Any
payment made by check or other negotiable instrument or direct debit must be drawn on a U.S. bank or a U.S. branch of a
foreign bank. We reserve the right to accept payments made in a foreign currency. If we do, we will select the foreign
currency rate at our discretion. Your available credit may not be immediately increased by the amount of the payment for
up to seven (7) days to ensure we collect the funds from the bank on which your payment is drawn. If you overpay or if
there is a credit balance on your Account, we will not pay interest on such amounts.
Credit Limit/Authorized Usage. Your Credit Limit is shown on the folder containing your Card. We may change your
Credit Limit from time to time—either increase or decrease it—at our sole discretion. If at any time (including in the first
month after your Account is opened) you engage in account actions or activity that we perceive could have a negative
impact on your credit standing with us, we may decrease your Credit Limit or close your Account. Your latest Credit Limit
will appear on your monthly billing statement. You agree not to make a Purchase, authorize a Balance Transfer, use a
Check, or obtain a Cash Advance that would cause the unpaid balance of your Account to exceed your Credit Limit. We
may honor Purchases, Balance Transfers, Checks and/or Cash Advances in excess of your Credit Limit at our sole
discretion. If we do, this Agreement applies to that excess and you agree to pay the excess immediately if we request
that you do so. You agree that we may change your Credit Limit or close your Account at any time for any reason without
affecting your obligation to pay amounts that you owe under this Agreement. We will notify you of any change, but that
change many take effect before you receive the notice. We may designate that only a portion of your Credit Limit is
available for Cash Advances. If we do and you exceed your Cash Advance Credit Limit, you will be considered to have
exceeded your Credit Limit for all purposes of this Agreement. We may limit the authorizations to make Purchase,
Balance Transfer, Check, or Cash Advance transactions that may be accomplished with your Card or Account. We may in
our sole discretion allow you to exceed your Credit Limit at any time, but we are not required to. In addition, if we do allow
you to exceed your Credit Limit for any transaction or transactions, we will not be required to allow you to do so on another
occasion. These charges will be evaluated based on account performance, other credit accounts with us, and your
experience with other creditors. If we authorize these charges, you must pay, with your Minimum Payment Due, the
amount by which your balance exceeds your revolving Credit Limit, including amounts due to Purchases, Cash Advances,
Interest charges, Fees, or other charges.
Checks on Your Account. We may issue Checks on your Account in the form of “Balance Transfer Checks” or “Cash Advance
Checks,” which can be used to access your Credit Limit. Each Check will contain your Account number and may be used only
by the person(s) whose name(s) is/are printed on it. Each must be completed and signed in the same manner as a regular
personal check. If we provide Checks to you, you may not use them to pay any amount you owe under this Agreement or
under any other account you may have with us. Balance Transfer Checks and Cash Advance Checks are subject to the same
rate and other terms under this Agreement as Balance Transfers and Cash Advances, respectively. Unless otherwise
indicated, all references in this Agreement to Balance Transfers include Balance Transfer Checks, all references to Cash
Advances include Cash Advance Checks, and all references to use of the Account include use of these Checks. At our sole
discretion we may elect to not honor a Check if there has been a change in your credit worthiness, your Account is not in
good standing or if the Check may cause your Account to exceed the Cash Advance or other applicable Credit Limit on your
Account. At our sole discretion we may elect to honor a Check after its expiration date. Unlike purchase transactions, there
are no charge back rights with regard to Balance Transfer and Check transactions.

G15809 3.31.2020 Page 3 of 15

Monthly Billing Statements. At the end of each monthly billing cycle a statement will be mailed or delivered to you if your
Account has a debit or credit balance of more than $1.00 or if interest or a fee has been imposed. We will not send a
monthly billing statement if we deem your Account uncollectible or if delinquency collection proceedings have been
instituted by us sending your Account to an outside collection agency or attorney for collection.
The provisions describing how we calculate your balance subject to interest rate each month, accrual of interest and how to
avoid paying interest on purchases may vary based on the account type that the applicant applied for and whether the
applicant is a resident of Iowa. The following two options contain the various provisions that could apply, and one of these
options will be reflected in the Cardholder Agreement assigned at account opening:
OPTION 1: How We Will Calculate Interest. We use a method called “daily balance (including new purchases)”. We
calculate interest separately for each “Balance Subject to Interest Rate”. These include for example, Purchases at the
current rate, Balance Transfers at the current rate, Cash Advances at the current rate, and different promotional balances.
Your monthly billing statement shows each “Balance Subject to Interest Rate”.
To calculate interest, we first calculate a daily balance for each Balance Subject to Interest Rate. We start with the balance,
for that Balance Subject to Interest Rate, as of the end of the previous day. We add any interest calculated on the previous
day’s balance. (This means interest is compounded daily). We add any new Purchases, Balance Transfers, or Cash Advances
to the appropriate balance, subtract any new payments or credits from the appropriate balance. We then add all fees that
have not already been added to your balance and make other adjustments as authorized by this Agreement. A credit
balance is treated as a balance of zero. We then multiply each daily balance by the applicable DPR. We do this for each day
in the billing period. That gives us the daily interest. We add up all the daily interest for all of the daily balances to get the
total interest for the billing period.
Accrual of Interest and How to Avoid Paying Interest on Purchases. On Purchases, interest begins to accrue as of the
transaction date. However, you may avoid paying interest on Purchases in any given billing cycle if you pay your New
Balance in full by the Payment Due Date. For Balance Transfers, interest will accrue from the transaction date which
generally will be the day we send the Balance Transfer to the payee. For Checks, interest will accrue from the transaction
date which generally will be the day the payee accepts the Check. For Cash Advances, interest will accrue from the
transaction date which generally will be the day you take the Cash Advance. If you are charged interest in a billing cycle, we
will charge a Minimum Interest Charge (or “Minimum Charge”) on your Account if the total interest charge in that billing
cycle is less than the amount of the Minimum Interest Charge.
OPTION 2: How We Will Calculate Your Balance Subject to Interest Rate (For Residents of Iowa at the Time of Account
Opening). We use a method called “average daily balance (including new purchases)”. To determine the amount of the
interest to be charged on your Account we first calculate the “Balance Subject to Interest Rate” separately for Purchases,
for Balance Transfers, and for Cash Advances. We apply the applicable Monthly Periodic Rate to the average daily balances
of i) Purchases, ii) Balance Transfers, and iii) Cash Advances. The average daily balances for Purchases, for Balance
Transfers, and for Cash Advances are calculated separately and determined as follows: We take the beginning balances for
each balance category on your Account each day, add to the respective balances any new transactions and any fees that
you have incurred and that have not already been added to your balance, and then subtract any payments or credits and
make any other applicable adjustment(s). A credit balance is treated as a balance of zero. Then we take the sum of all daily
balances and divide by the number of days in the billing period to determine the average daily balance. If you multiply the
“Balance Subject to Interest Rate” for each balance category as disclosed on your monthly billing statement by the
applicable MPRs, the results will be the interest assessed, except for minor variations caused by rounding. We may from
G15809 3.31.2020 Page 4 of 15

time to time offer you “introductory,” “special” or “promotional” APR offers. If any are in effect on your Account, we will
separately identify the balances to which such offers apply on your monthly billing statement. These separate balances and
the related interest will be calculated in the same manner as described above.
Accrual of Interest and How to Avoid Paying Interest on Purchases.
On Purchases, interest begins to accrue as of the transaction date. However, you may avoid paying interest on Purchases in
any given billing cycle if you pay your Statement Balance in full by the Payment Due Date each month. For Balance
Transfers, interest will accrue from the transaction date which generally will be the day we send the Balance Transfer to the
payee. For Checks, interest will accrue from the transaction date which generally will be the day the payee accepts the
Check. For Cash Advances, interest will accrue from the transaction date which generally will be the day you take the Cash
Advance. If you are charged interest in a billing cycle, we will charge a Minimum Interest Charge (or “Minimum Charge”) on
your Account if the total interest charge in that billing cycle is less than the amount of the Minimum Interest Charge that is
disclosed in the terms of your Account.
Your Minimum Payment Each Month. Each billing cycle, you must pay at least the Minimum Payment Due shown on your
monthly statement by its Payment Due Date. We will calculate it as follows:
1. If the New Balance (defined below) is less than $20, the Minimum Payment Due equals the New Balance shown on
your monthly statement.
2. If the New Balance is $20 or more, the Minimum Payment Due equals the greater of $20 or the total of:
•
•
•
•

1% of the New Balance,
Any interest charges billed on the monthly statement (excluding any interest charges that accrued during prior
billing cycles on a deferred interest balance that ended during the billing cycle covered by the statement),
Any Minimum Interest Charge, and
Any Late Payment, Returned Payment, Cash Advance, Balance Transfer and Convenience Check Fees.

If we so elect, your Minimum Payment Due may also include any amount that, at the time of billing, is past due and/or over
your Credit Limit. In certain instances, your Minimum Payment Due may be less than the total fees and interest assessed
that billing cycle. At any time, you may pay more than the Minimum Payment Due up to the full amount you owe us.
However, you cannot “pay ahead”. This means that if you pay more than the required Minimum Payment Due in any billing
cycle or if you make more than one payment in a billing cycle, you will still need to pay the next month’s required Minimum
Payment Due by your next Payment Due Date.
Variable Rate Information
Variable Rate Information. The following applies to any APR on your Account that varies with the market based on the
Prime Rate. The standard Annual Percentage Rates (APRs) on our Account that are used to determine the amount of
interest to be charged for Purchases, Balance Transfers, Cash Advances, and the Penalty APR are variable rates. The APRs
on your Account correspond to a daily periodic rate (“DPR”) or a monthly periodic rate (“MPR”) which is applicable only to
residents of Iowa at the time of Account opening.

G15809 3.31.2020 Page 5 of 15

The applicable DPRs/MPRs on your Account equal 1/365th (or 1/12th for residents of Iowa at the time of
Account opening) of the sum of 1) the applicable Prime Rate, 2) plus the margin(s) listed above for each
Purchase, Balance Transfer, or Cash Advance balance or the margin listed above if a Penalty APR applies. The
“Prime Rate” used in determining the APRs in each billing cycle will be the highest rate published in the Money
Rates column of The Wall Street Journal on the last business day of each month. An increase or decrease in the
Prime Rate will cause a corresponding increase or decrease to your variable rates on the first day of the billing
cycle that begins in the same month in which the applicable Prime Rate is published. There is no limitation on the
amount of any increase. Any such increase or decrease will cause a corresponding increase or decrease in the
amount of interest assessed and possibly in the amount of the Minimum Payment Due. If The Wall Street Journal
does not publish the U.S. Prime Rate, or if it changes the definition of the U.S. Prime Rate, we may substitute
another index.
APR for Purchases: The variable rate equals the Prime Rate plus a margin from 9.74% to 21.74%, (this corresponds to a
current DPR of 0.02668% - 0.05956%) (this corresponds to a current MPR of 1.81167% - 1.81167% for residents of Iowa at
the time of account opening (if applicable)).
APR for Balance Transfers: The variable rate equals the Prime Rate plus a margin from 9.74% to 21.74%, (this corresponds
to a current DPR of 0.02668% - 0.05956%) (this corresponds to a current MPR of 1.81167% - 1.81167% for residents of Iowa
at the time of account opening (if applicable)).
APR for Cash Advances: The variable rate equals the Prime Rate plus a margin of 21.99%, (this corresponds to a current
DPR of 0.06025%) (this corresponds to a current MPR of 1.8325% for residents of Iowa at the time of account opening (if
applicable)).
Penalty APR: The variable rate equals the Prime Rate plus a margin from 0% to 23.99%, (this corresponds to a current DPR
of 0.00000% - 0.06573%) (this corresponds to a current MPR of 0.00000% - 1.99917% for residents of Iowa at the time of
account opening (if applicable)).
How the Penalty APR may apply to Your Account: The APRs on your Account may be increased each time you fail to pay at
least the Minimum Payment Due when it is due. We will determine the amount of the Penalty APR increase based on our
review of your credit history at the time (including your credit performance with other creditors). Our notice will specify the
balances to which the Penalty APR will be applied. The Penalty APR may continue to apply to these balances indefinitely.
However, the Penalty APR will cease to apply to certain existing balances if, after the Penalty APR goes into effect, you
make the next six consecutive minimum payments in a row when due.
Transaction Fees. We may charge and you agree to pay each of the following transaction fees:
• If you use your Card or Account to obtain a Cash Advance, we will charge a Cash Advance Fee for each such Cash
Advance.
• If you use your Card or Account to do a Balance Transfer, we will charge a Balance Transfer Fee for each such
Balance Transfer.
• If you use your Card or Account to purchase Cash Equivalents, we will charge a Cash Advance Fee (sometimes we
may refer to this as a Cash Equivalent Fee) for each such transaction.
• If you use your Card or Account for a Foreign Transaction, we will charge a Foreign Transaction Fee for each such
transaction.
Balance Transfer Checks and Cash Advance Checks are subject to the same Transaction Fee as Balance Transfers and Cash
Advances, respectively. The present amounts of those charges are stated in the Terms & Conditions, located under
Disclosures on www.farmbureaubank.com.
Account Fees. In addition to the fees listed in the Terms & Conditions, we may also assess the Account Fees listed below.
G15809 3.31.2020 Page 6 of 15

Annual Fee - If your account has an Annual Fee, generally it will be billed at account opening and every twelve months
thereafter. The amount of the Annual Fee, if there is one on your Account, is listed in the Terms & Conditions.
Late Payment Fee - If we do not receive a payment from you in at least the amount of your Minimum Payment Due by the
Payment Due Date shown on your monthly statement, we may charge you a Late Payment Fee. The amount of the Late
Payment Fee will be determined in accordance with applicable law. Thus, the fee generally will not exceed the amount of
the applicable Minimum Payment Due. In addition, the first time you pay late, the fee will not exceed $25. If you again pay
late within six billing cycles, the fee will not exceed $35.
Late Payment Fee for Residents of Iowa at the Time of Account Opening – If we do not receive a payment from you in at
least the amount of your Minimum Payment Due by the Payment Due Date shown on your monthly statement, we may
charge you a Late Payment Fee. The amount of the Late Payment Fee will be determined in accordance with applicable law.
Thus, the fee generally will be the amount of the applicable Minimum Payment Due or $15, whichever is less.
Returned Payment Fee - If your bank does not honor a check or direct debit you deliver to us, or we must return a check
because it is not signed or is otherwise irregular, we may charge you a Returned Payment Fee. The amount of the Returned
Payment Fee will be determined in accordance with applicable law. Thus, the fee generally will not exceed the amount of
the applicable Minimum Payment Due. In addition, the first time you make a payment that is returned, the fee will not
exceed $25. If you again make a payment that is returned within six billing cycles, the fee will not exceed
$35.
Returned Payment Fee for Residents of Iowa at the Time of Account Opening – If your bank does not honor a check or
direct debit you deliver to us, or we must return a check because it is not signed or is otherwise irregular, we may charge
you a Returned Payment Fee. The amount of the Returned Payment Fee will be determined in accordance with applicable
law. Thus, the fee will be the amount of the applicable Minimum Payment Due or $15, whichever is less.
Returned Check Fee - If we return a Convenience Check (which includes a Balance Transfer Check or a Cash Advance Check)
unpaid because it exceeds your available Credit Limit at the time it is processed, your Account is closed or otherwise does
not have charge privileges, you did not comply with our instructions regarding the Check or your Account is past due, we
may charge you a Returned Check Fee. The amount of the Returned Check Fee will be determined in accordance with
applicable law. Thus, the fee generally will not exceed the amount of the returned Convenience Check. In addition, the first
time a Convenience Check is returned, the fee will not exceed $25. If you again have a Convenience Check returned within
six billing cycles, the fee will not exceed $35.
Returned Check Fee for Residents of Iowa at the Time of Account Opening – If we return a Convenience Check (which
includes a Balance Transfer Check or a Cash Advance Check) unpaid because it exceeds your available credit line at the time
it is processed, your Account is closed or otherwise does not have charging privileges, you did not comply with our
instructions regarding the check or your Account is past due, we may charge you a Returned Check Fee. The amount of the
Returned Check Fee will be determined in accordance with applicable law. Thus, the fee generally will not exceed the
amount of the returned Convenience Check or $20, whichever is less.
Check Stop Payment Fee – If we stop payment on a Convenience Check at your request, we may charge you a Check Stop
Payment Fee of up to $39.95.

G15809 3.31.2020 Page 7 of 15

Check Stop Payment Fee for Residents of Iowa at the Time of Account Opening – If we stop payment on a Convenience
Check at your request, we may charge you a Check Stop Payment Fee of $29.
Foreign Currency Conversion. For MasterCard Cards, we and MasterCard (or their affiliates) will convert transactions in
foreign currencies into U.S. Dollars. MasterCard will use their currency conversion procedures that are current at the time
of the transaction. Currently, the currency conversion rate they use is either the wholesale market rate or the governmentmandated rate in effect under those procedures increased by one percent. The currency conversion rate used on the
conversion date may differ from the rate in effect on the date you used your Card or Account.
Authorized Users. You may allow Authorized Users to use your Account. If you allow an Authorized User to use your
Account, you will be liable for all transactions made by that person including transactions for which you may not have
intended to be liable, even if the amount of those transactions causes your credit limit to be exceeded. You must notify us
to revoke your permission to allow an Authorized User to use your Account or Card. Until you revoke your permission, you
are responsible for all charges made by an Authorized User, including Balance Transfer Check and Cash Advance Check
transactions, regardless of whether you intended to be responsible for those charges. If you request additional Cards for
Authorized Users, checks accessing this Account may also be included with the Card.
Administrative Charges. If you request photocopies of monthly billing statements, you will be charged $5 for each duplicate
requested for each statement that is less than 25 months old. If the requested statement is 25 months or more you will be
charged $10 for each requested statement. If you request any special services such as obtaining Cards on an expedited
basis, you agree to pay our reasonable charges for such service, in effect at that time.
Default/Collection Costs. Unless otherwise prohibited by law, your Account will be in default and we may demand
immediate payment of the entire amount you owe us if: 1) in any month we do not receive your Minimum Payment Due by
the Payment Due Date; 2) you make Purchases, initiate Balance Transfers, use a Check, or obtain Cash Advances in excess of
your Credit Limit; 3) you fail to comply with this Agreement; 4) there is a filing for your bankruptcy; 5) you die or become
incapacitated; or 6) we believe in good faith that the payment or performance of your obligations under this Agreement is
impaired for any other reason. As permitted by applicable law, you agree to pay all collection expenses actually incurred by
us in the collection of amounts you owe under this Agreement (including court or arbitration costs and the fees of any
collection agency to which we refer your Account) and, in the event we refer your Account after your default to an attorney
who is not our regularly salaried employee, you agree to pay the reasonable fees of such attorney. We will not be obligated
to honor any attempted use of your Account if a default has occurred or we have determined to terminate your Account or
limit your Account privileges (as discussed below).
Termination/We May Suspend or Close Your Account. We may suspend or close your Account or otherwise terminate
your right to use your Account without prior notice. We may do this at any time and for any reason, including but not
limited to, if there is a change to your creditworthiness or if your Account becomes inactive. You must destroy all Cards,
Checks or other credit devices on the Account when we request. You agree that you will not try to make a Purchase, use a
Check, initiate a Balance Transfer or obtain a Cash Advance after you have been notified that your privilege to use your
Account has been closed or revoked. You may close your Account at any time. If you do, you must destroy all Cards and
Checks previously issued on the Account. If you call us, we may require that you confirm your termination in writing.
Your obligations under this Agreement continue even after the Account is closed.
Notices to You. Billing statements and notices will be sent to the address shown in our files. If this is a joint Account, we
may send billing statements and notices to either of you. You promise to promptly inform us of any change in your e- mail
G15809 3.31.2020 Page 8 of 15

address or your U.S. mail address. You may update this information by visiting the website on the back of your Card and
sending us an e-mail or telephoning us at the telephone number provided on your Card. We may in our discretion accept
address corrections from the United States Postal Service.
Consent to Receive Electronic Notices. You may receive periodic billing statements and other notices regarding your
Account electronically or by U.S. mail. By requesting statements and other notices electronically, which may only be done
on our website, and by providing any other legally required consents, you affirmatively consent to receive all periodic billing
statements and other notices electronically when legally permissible. Otherwise, statements and notices will be sent to the
address shown in our files. If at any time you need a paper copy of statements or notices, or you change your mind and
prefer to receive all your statements and notices in paper rather than electronic form, telephone us at the number provided
on the back of your card or visit us at the website on the back of your Card and send us an e- mail. In order to access your
statements and notices electronically, you must have a computer equipped with at least a 40-bit JavaScript-enabled
Netscape or Microsoft browser at the Version level 4.0 or higher. In order to retain your statements and notices, you must
have a printer attached to your computer that can print them out or a drive or other storage device onto which you can
download them. By accepting the receipt of electronic statements and other notices, you confirm that you have the
software and equipment that satisfies these requirements to enable you to access and retain your statements and notices
electronically.
Skip Payment Program and Other Special Terms. From time to time, we may let you skip or reduce one or more monthly
payments (interest will continue to accrue) or offer you other special features. If we do, we will advise you of the scope and
duration of the applicable skip or special feature. When the skip or special feature ends, your regular terms will resume.
Changes to this Agreement. We may amend the terms of this Agreement, including the amount of any fees, from time to
time in our sole discretion. Depending on the nature of the change, the amendment to this Agreement may, on or after
the date on which it becomes effective, apply to all of your then-outstanding unpaid indebtedness to us under your
Account. If required by applicable law, we will (a) send notice of the changes to you at the address shown on our records
for you and (b) give you the right to opt out of the change. If you opt out of the change you will be unable to initiate any
further transactions on the Account and you will be required to repay the amount that you owe us under the terms and
conditions of the then-existing Agreement.
Credit Performance. Your Account was established based upon criteria which reflect your particular credit history. We will
from time to time review your credit performance. In addition to any other rights we have, if you do not maintain your past
level of credit performance, we may change some or all of the Account terms on your Account, and if we do we will notify
you as provided in this Agreement and in accordance with applicable law.
Credit Information. You agree that we may request consumer credit reports from one or more credit reporting agencies
in connection with your application and the administration of your Account. Upon your request, we will tell you whether
we obtained a consumer report and the names and addresses of any consumer reporting agencies that provided such
reports.
Furnishing Information to Credit Reporting Agencies. You also authorize us to exchange credit information concerning you
or your Account with (and answer questions and requests from) others, such as merchants, other lenders and credit
reporting agencies. If you believe that we have furnished any inaccurate information relating to your Account to any
consumer reporting agency, you may notify us at the following address: P.O. Box 33427, San Antonio, TX 78265-3427. To
help us respond to your notification, you must include your Account number, Social Security number, the name of the
G15809 3.31.2020 Page 9 of 15

consumer reporting agency reflecting the inaccurate information, and an explanation of why you believe the information is
inaccurate. You understand that you may also contact the appropriate consumer reporting agency directly at the following
address and toll-free number: Equifax, P.O. Box 740241, Atlanta, GA 30374, 1.800.685.1111; Trans Union, P.O. Box 1000,
Chester, PA 19022, 1.800.916.8800; or Experian, P.O. Box 2002, Allen, TX 75013, 1.888.397.3742.
NEGATIVE CREDIT REPORTS
YOU ARE HEREBY NOTIFIED THAT A NEGATIVE REPORT RELECTING YOUR CREDIT HISTORY WITH US MAY BE SUBMITTED TO
A CREDIT REPORTING AGENCY IF YOU FAIL TO FULFILL THE TERMS OF YOUR CREDIT OBLIGATIONS. LATE PAYMENTS,
MISSED PAYMENTS, OR OTHER DEFAULTS ON YOUR ACCOUNT MAY BE REFLECTED IN YOUR CREDIT REPORT.
Calls/Electronic Communications. In the regular course of our business, we may monitor and record phone conversations
made or received by our employees or our agents. Similarly, we may monitor and record e-mail or conversations on our
website between you and our employees or agents. You agree that we will have such right with respect to all phone
conversations, e-mail or conversations between you and our employees or agents, whether initiated by you or any of our
employees or agents. We may contact you by telephone in connection with the Account, directly or through an agent – for
example, to collect amounts owed on the Account, to notify you of potential fraudulent transactions on your account or for
other account-servicing purposes. If at any time you provide a mobile telephone number at which you may be contacted,
you consent to receive calls (including autodialed calls and prerecorded messages) at that mobile number from us, our
successors and assigns, and our affiliates, agents and independent contractors, including servicers and collection agents,
regarding the Account or your related financial obligations.
You consent and further agree that: (1) these telephone calls, from us or on our behalf, may be made: (a) to the telephone
number(s) that you provided on the Account application, (b) to any other telephone number(s) that you later provide to us,
and/or (c) to any telephone number(s) that we are permitted by law to use to contact you; (2) these calls may be sent using
automatic dialing equipment and/or include prerecorded messages; (3) other communications, including mobile text
messages, may be sent to the same telephone number(s) (technology permitting); (4) you may be charged by your service
provider for these calls in accordance with your service plan between you and your current telephone provider; (5) these
calls and/or messages are not “unsolicited” calls for purposes of applicable law; and (6) except to the extent prohibited by
applicable law, other communications, including, but not limited to, fax, Internet, U.S. mail, and non-mobile email
messages, may be sent to you.
Refusal to Honor Card. We are not responsible for refusals to honor your Card or Checks. Except as otherwise required by
applicable law or regulation, we will not be responsible for merchandise or services purchased or leased through use of
your Account.
Irregular Payments and Delay in Enforcement. We can accept late payments, partial payments, checks and money orders
marked “Paid in Full” or language having the same effect without losing any of our rights under this Agreement. We can
also delay enforcing our rights under this Agreement any number of times without losing them. The fact that we may at any
time honor a Purchase, Check, Balance Transfer or Cash Advance in excess of your maximum Credit Limit does not obligate
us to do so again.
Our Rights Continue. Our failure or delay in exercising any of our rights under this Agreement does not mean that we are
unable to exercise those rights later.

G15809 3.31.2020 Page 10 of 15

Payments Made on Your Account. If you make a payment on this Account utilizing a check, you authorize us either to use
the information from your check to make a one-time electronic fund transfer from your checking/deposit account or to
process the payment as a check transaction. When we use information from your check to make an electronic fund
transfer, funds may be withdrawn from your bank account as soon as the same day you make your payment, and you will
not receive your check back from your financial institution. For inquiries, or to opt out of one-time electronic fund transfers,
please call the number listed on the back of your Card.
Payments that are Returned on Your Account. If a payment you make is not honored by your bank and we have already
credited your account for the payment, we will reverse the credit in the following manner. We separately total the amounts
credited to Purchases, Cash Advances, and Balance Transfers. For each such amount we create a new transaction at the
then current applicable rate for Purchases, Cash Advances, and Balance Transfers, respectively, and add that transaction to
your account as of the date the original payment was first credited to your Accounts.
Payment Allocation. Subject to any mandatory provisions of applicable law, in most instances, we will allocate any
amount over your minimum payment to the highest APR balances first. Payments up to the minimum payment will be
applied at our discretion, including to lower APR balances first.
Liability for Unauthorized Use of Your Account. If your Card or any Check(s) are lost or stolen or if you have reason to think
someone may use your Account without your permission, you must notify us at once. Please either visit the website on the
back of your Card and send us an e-mail or telephone us at the number on the back of your Card concerning the loss or
theft of your Card or Checks or the possible unauthorized use of your Account. Do not use the Card, Account number or any
Checks after they have been reported lost or stolen, even if they are found or returned. You will not be liable for
unauthorized use of the Account; however, you must identify for us the charges that were not made by you or someone
authorized by you and through which you received no benefit. We may require you to provide us with certain information
and to comply with our investigation procedures. We may terminate or limit access to your Account if you have notified us
or we have determined that your Card or Checks may have been lost or stolen, or that there may be unauthorized access to
your Account.
Sale of Account and Assignment to Farm Bureau Bank. This Account was originated by Barclays Bank Delaware but may
be subsequently sold, assigned, or transferred to Farm Bureau Bank, FSB or to any other person or entity. Farm Bureau
Bank, FSB may at any time, and without any notice to you, sell, assign, or transfer your Account, any sums due on your
Account, this Agreement or our rights or obligations under your Account or this Agreement. The person(s) to whom we
make any such assignment shall be entitled to all of our rights under the Agreement, to the extent sold, assigned, or
transferred.
Governing Law. This Agreement and your Account will be governed by applicable federal law and, to the extent not
preempted by federal law, the laws of the State of Nevada.
Inquiries or Questions: You may address any inquiries or questions which you have about your Account to Farm Bureau
Bank, FSB, by visiting the website on the back of your Card and sending us an e-mail, writing us at Farm Bureau Bank, FSB,
P.O. Box 33427, San Antonio, Texas 78265-3427, or calling us at the number on the back of your Card. If you telephone or
email us instead of writing, you may lose certain rights the law gives you to dispute billing errors.

G15809 3.31.2020 Page 11 of 15

ARBITRATION. At the election of either you or us, any claim, dispute or controversy (“Claim”) by either you or us against
the other, arising from or relating in any way to this Agreement or your Account, or their establishment, or any transaction
or activity on your Account, including (without limitation) Claims based on contract, tort (including intentional torts), fraud,
agency, negligence, statutory or regulatory provisions or any other source of law and (except as otherwise specifically
provided in this Agreement) Claims regarding the applicability of this arbitration provision or the validity of the entire
Agreement, shall be resolved exclusively by arbitration. For purposes of this provision, “you” includes yourself, any
authorized user on the Account, and any of your agents, beneficiaries or assigns, or anyone acting on behalf of the
foregoing, and “we” or “us” includes our employees, parents, subsidiaries, affiliates, beneficiaries, agents and assigns, and
to the extent included in a proceeding in which Farm Bureau Bank, FSB, is a party, its service providers and marketing
partners. Any Claims sought to be made or remedies sought to be obtained as part of any class action, private attorney
general or other representative action (hereafter all included in the term “class action”) shall be subject to arbitration, and
arbitrated on an individual basis between you and us, not on a class or representative or other collective basis. The
arbitrator shall not have any authority to entertain a claim, or to award any relief, on behalf of or against anyone other than
a named party to the arbitration proceeding. If any Claim is advanced in a court, arbitration may be elected under this
provision instead, and the right to elect arbitration shall not be deemed to have been waived if the election is made at any
time before commencement of trial.
Alternatively, you and we may pursue a Claim within the jurisdiction of the Justice of the Peace Court in Nevada, or the
equivalent court in your home jurisdiction, provided that the action remains in that court, is made on behalf of or against
you only and is not made part of a class action, private attorney general action or other representative or collective action.
The arbitration shall be administered by the American Arbitration Association, www.adr.org, 950 Warren Avenue, East
Providence, Rhode Island, 02914, 1.866.293.4053 (the “Administrator”). The Administrator provides information about
arbitration, its arbitration rules and procedures, fee schedule and claims forms at its web site or by mail as set forth above.
The Administrator will apply the rules and procedures in effect and applicable to the claim at the time the arbitration is
filed. The Claim will be heard before a single arbitrator. The arbitration will not be consolidated with any other arbitration
proceedings. The Administrator shall resolve each dispute in accordance with applicable law.
If you commence arbitration, you must provide us the notice required by the Administrator’s rules and procedures. The
notice may be sent to our Operations Center at Farm Bureau Bank FSB, PO Box 33427, San Antonio, Texas 78265-3427. If
we commence arbitration, we will provide you notice at your last known billing address. We agree to honor a request by
you to remove the action to a Small Claims Court, provided that we receive the request within thirty days of the notice of
commencement of arbitration. Any arbitration hearing at which you appear will take place at a location within the federal
judicial district that includes your billing address at the time the Claim is filed.
This arbitration agreement is made pursuant to a transaction involving interstate commerce, and shall be governed by the
Federal Arbitration Act, 9 U.S.C. §§ 1-16. No class actions, joinder or consolidation of any Claim with a Claim of any other
person or entity shall be allowable in arbitration, without the written consent of both you and us. In the event that there is
a dispute about whether limiting arbitration of the parties’ dispute to non-class proceedings is enforceable under applicable
law, then that question shall be resolved by litigation in a court rather than by the arbitrator; and to the extent it is
determined that resolution of a Claim shall proceed on a class basis, it shall so proceed in a court of competent jurisdiction
rather than in arbitration.

G15809 3.31.2020 Page 12 of 15

A party can file with the Administrator a written appeal of a single arbitrator’s award within 30 days of award issuance,
requesting a new arbitration in front of three neutral arbitrators designated by the Administrator. The panel will reconsider
all factual and legal issues, following the same rules of procedure, and will make decisions based on majority vote. Any final
arbitration award will be binding on the named parties and enforceable by any court having jurisdiction. Judgment upon
any arbitration award may be entered in any court having jurisdiction.
We will pay, or reimburse you for, all fees or costs to the extent required by law or the rules of the arbitration
Administrator. Whether or not required by law or such rules, if you prevail at arbitration on any Claim against us, we will
reimburse you for any fees paid to the Administrator in connection with the arbitration proceedings. Under no
circumstances will we seek from you payment or reimbursement of any fees that we incur in connection with arbitration. In
addition, in any arbitration that you elect to file that could be heard in Small Claims Court in your jurisdiction, we will pay
the filing fees and other arbitration fees above the cost of filing in that Small Claims Court. If you are required to advance
any fees or costs to the arbitration Administrator, but you ask us to do so in your stead, we will consider and respond to
your request.
This arbitration agreement applies to all Claims now in existence or that may arise in the future, and it survives the
termination of the Cardholder Agreement and the Account relationship, including your payment in full, and your filing of
bankruptcy. Nothing in this Agreement shall be construed to prevent any party’s use of (or advancement of any claims,
defenses, or offsets in) bankruptcy or repossession, replevin, judicial foreclosure or any other prejudgment or provisional
remedy relating to any collateral, security or property interests for contractual debts now or hereafter owed by either party
to the other under this Agreement.
ARBITRATION WITH RESPECT TO A CLAIM IS BINDING AND NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE
THAT CLAIM THROUGH A COURT. IN ARBITRATION YOU AND WE WILL NOT HAVE THE RIGHTS THAT ARE PROVIDED IN
COURT INCLUDING THE RIGHT TO A TRIAL BY JUDGE OR JURY AND THE RIGHT TO PARTICIPATE OR BE REPRESENTED IN
PROCEEDINGS BROUGHT BY OTHERS SUCH AS CLASS ACTIONS OR SIMILAR PROCEEDINGS. IN ADDITION, THE RIGHT TO
DISCOVERY AND THE RIGHT TO APPEAL ARE ALSO LIMITED OR ELIMINATED BY ARBITRATION. ALL OF THESE RIGHTS ARE
WAIVED AND ALL CLAIMS MUST BE RESOLVED THROUGH ARBITRATION.

G15809 3.31.2020 Page 13 of 15

Your Billing Rights: Keep this Document for Future Use. This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What to Do if You Find a Mistake on Your Statement.
If you think there is a mistake on your statement, write to us at:
Farm Bureau Bank
PO Box 33427
San Antonio, Texas 78265
You may also contact us on the Web: www.farmbureaubank.com
In your letter, give us the following information:
• Account Information: Your name and account number.
• Dollar Amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that account.
• The charge in question may remain on your statement, and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply an unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe.
G15809 3.31.2020 Page 14 of 15

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you have tried in good
faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or electronically at:
Farm Bureau Bank
PO Box 33427
San Antonio, TX 78265
www.farmbureaubank.com
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.

G15809 3.31.2020 Page 15 of 15

